No. 21 - _____
In the
SUPREME COURT OF THE UNITED STATES
)
9/11 INQUIRY, INC., ROBERT MCILVAINE, )
and ARCHITECTS & ENGINEERS FOR
)
9/11 TRUTH,
)
)
Plaintiffs Appellants, )
)
v.
)
)
CHRISTOPHER A. WRAY, Director,
)
Federal Bureau of Investigation,
)
MERRICK GARLAND, Attorney General
)
of the United States, and the UNITED STATES )
DEPARTMENT OF JUSTICE,
)
)
Defendants -- Appellees. )

On Petition for Writ of
Certiorari to the United
States Court of Appeals
for the District of
Columbia Circuit

PETITION FOR WRIT OF CERTIORARI
John M. Clifford,
Clifford & Garde, LLP
815 Black Lives Matter Plaza, NW, #4082
Washington, D.C. 20006
Tel. 202.280.6115
jclifford@cliffordgarde.com
Counsel of Record
Mick G. Harrison, Esq.
520 S. Walnut Street, #1147
Bloomington, IN 47402
(812) 361-6220
mickharrisonesq@gmail.com
1

QUESTIONS PRESENTED
A.

Did the United States Court of Appeals for the District of Columbia Circuit
Depart from the Accepted and Usual Course of Judicial Proceedings to Such
an Extent as to Call for an Exercise of this Court's Supervisory Power When
the Court of Appeals Failed to Provide a Remedy or a Disclosure Regarding
an Apparent Violation of the Federal Judicial Disqualification Statute
Regarding a Judge Who Was a Member of an Appeals Panel in a Case
where the Department of Justice was a Defendant While that Judge Was a
Candidate Under Consideration for the Nomination to be Attorney General
of the United States?

B.

Did the United States Court of Appeals for the District of Columbia Circuit
Err in Deciding the Proper Role of Legislative History in Determining
Congressional Intent in a Manner that Conflicts with Decisions of the
Supreme Court on this Important Question When the District Court
Concluded that an Appropriations Act, which Provided Substantial Funding
for the FBI to Conduct an Independent Assessment of Evidence Related to
the Terrorist Attacks of September 11, 2001, Did Not Require the FBI to
Report or Disclose Any Information Resulting from this Assessment to
Anyone, Including to Congress, Notwithstanding Unambiguous and
Authoritative Legislative History to the Contrary?

C.

Did the United States Court of Appeals for the District of Columbia Circuit
Err in Interpreting the Requirements for Article III Standing in a Manner
that Is in Conflict with Decisions of the Supreme Court on this Important
Question When It Denied Standing to a Father Who Lost His Son in the 9/11
Attacks, and to Two Non-Profit Organizations Asserting Informational and
Organizational Standing, the Missions of which Are Focused on 9/11
Transparency and Government Accountability?

2

LIST OF PARTIES
Petitioners, who were Plaintiffs-Appellants below, are:
Committee for 9/11 Inquiry, Inc.; Architects & Engineers for 9/11 Truth, and
Robert McILvaine.
The Defendants-Appellees are Christopher A. Wray, Director, Federal
Bureau of Investigation, Merrick Garland, Attorney General of the United States,
and the United States Department of Justice.

CORPORATE DISCLOSURE STATEMENT

for 9/11 Truth are not-for-profit corporations which do not have stockholders.
Plaintiff Robert McILvaine is an individual.

LIST OF PRIOR DIRECTLY RELATED PROCEEDINGS
The United States Court of Appeals for the District of Columbia Circuit, in
t al., Case No. 20-5051,
issued its unpublished Judgment
Plaintiffs-Appellants claims, on February 16, 2021 .

3

The United States Court of Appeals for the District of Columbia Circuit, in
, Case No. 20-5051,
issued its Order denying Appellants Motion for Disclosure and Alternative Motion
to Vacate Judgment, regarding judicial disqualification, on April 16, 2021.
The United States District Court for the District of Columbia, in
Committee for 9/11 Inquiry, Inc. et al. v. Wray et al., Case No. 1:19-cv-00824TNM, issued both its Memorandum Opinion and its Order (District Court Dkt.
Nos. 15, 16), dismissing Plaintiffs-

, on

January 3, 2020.

4

TABLE OF CONTENTS
PAGE:
QUESTIONS PRESENTED

.

.

.

.

.

.

.

2

LIST OF PARTIES

.

.

.

.

.

.

.

3

.

.

.

.

3

LIST OF PRIOR DIRECTLY RELATED PROCEEDINGS

.

.

3

TABLE OF AUTHORITIES

.

CORPORATE DISCLOSURE STATEMENT

.

.

.

.

.

.

.

8

CITATIONS OF OPINIONS AND ORDERS

.

.

.

.

12

STATEMENT OF JURISDICTION .

.

.

.

.

12

.

CITATIONS OF CONSITUTIONAL AND STATUTORY PROVISIONS 13
STATEMENT OF THE CASE .

.

.

.

.

.

.

14

A.

Jurisdiction of the District Court

.

.

.

.

.

14

B.

Jurisdiction of the Court of Appeals

.

.

.

.

.

15

C.

Relevant Procedural History

.

.

.

.

.

.

15

D.

Material Facts.

.

.

.

.

.

.

18

ARGUMENT ON REASONS FOR ALLOWANCE OF THE WRIT .

29

A.

.

.

The United States Court of Appeals for the District of Columbia
Circuit Departed from the Accepted and Usual Course of Judicial
Proceedings to Such an Extent as to Call for an Exercise of this
Court's Supervisory Power When the Court of Appeals Failed to
Provide a Remedy or Even a Disclosure Regarding an Apparent
Violation of the Federal Judicial Disqualification Statute Regarding
5

a Judge Who Was a Member of an Appeals Panel in a Case Where
the Department of Justice was a Defendant While that Judge Was a
Candidate Under Consideration for the Nomination to be Attorney
General of the United States
.
.
.
.
.
.
B.

The Decision Below of the United States Court of Appeals for the
District of Columbia Circuit, that an Appropriations Act, which
Provided Substantial Funding for the FBI to Conduct an
Independent Assessment of Evidence Related to the Terrorist
Attacks of September 11, 2001, Did Not Require the FBI to Report
or Disclose Any Information Resulting from this Assessment of the
Congress Itself, Notwithstanding Unambiguous and Authoritative
Legislative History to the Contrary, Is in Error and in Conflict with
Decisions of the Supreme Court on the Important Question of the
Role of Legislative History in Determining Congressional Intent

C.

29

36

The Decision Below of the United States Court of Appeals for the
District of Columbia Circuit, which Denied Standing to a Father Who
Lost His Son in the 9/11 Attacks, and to Two Non-Profit Organizations
Asserting Informational and Organizational Standing, the Missions of
Are Focused on 9/11 Transparency and Government Accountability,
Is in Error and in Conflict with Decisions of the Supreme Court on
the Important Question of the Constitutional Requirements for
Article III Standing
.
.
.
.
.
.
.
44

CONCLUSION

.

.

.

.

.

6

.

.

.

.

51

APPENDICES
APPENDIX A
JUDGMENT OF THE UNITED STATES COURT OF
APPEALS FOR THE DISTRICT OF COLUMBIA CIRCUIT, FILED
FEBRUARY 16, 2021 .
.
.
.
.
.
.
.

1a

APPENDIX B ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE DISTRICT OF COLUMBIA CIRCUIT, FILED
APRIL 16, 2021, DENYING
DISCLOSURE AND ALTERNATIVE MOTION TO VACATE
JUDGMENT
.
.
.
.
.
.
.
.
.

5a

APPENDIX C
MEMORANDUM OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE DISTRICT OF COLUMBIA,
FILED JANUARY 3, 2020
.
.
.
.
.
.
.

6a

7

TABLE OF AUTHORITIES
CASES

PAGE:

Aetna Life Insurance Co. v. Lavoie, 475 U.S. 813 (1986) .

.

.

33-34

.

.

50

Consumer Elec. Ass'n v. FCC, 347 F.3d 291 (D.C.Cir. 2003)

.

.

39

Demby v. Schweiker, 671 F.2d 507 (D.C.Cir.1981) .

.

.

40

.,
659 F.3d 13 (D.C. Cir. 2011)

.

.

.

.

.

.

Equal Rights Ctr. v. Post Properties, Inc., 633 F.3d 1136 (D.C. Cir. 2011)
, 524 U.S. 11 (1998)

50

.

.

.

45-46

.

.

.

32

Griffin v. Oceanic Contractors, Inc., 458 U.S. 564 (1982) .

.

.

39

Haggar Co. v. Helvering, 308 U.S. 389 (1940)

.

.

39

Hartford Underwriters Ins. Co. v. Union Planters Bank, N.A.,
530 U.S. 1 (2000) .
.
.
.
.
.
.
.

.

39

Havens Realty Corp. v. Coleman, 455 U.S. 363 (1982)

.

.

.

49

In re IBM Corp., 618 F.2d 923 (2d Cir. 1980)

.

.

.

.

32-33

Lamie v. United States Tr., 540 U.S. 526 (2004)

.

.

.

.

38-39

.

12

FTC v. Cement Institute, 333 U.S. 683 (1948)

.

.

.

Lawyers' Comm. for 9/11 Inquiry, Inc. v. Wray, 424 F. Supp. 3d 26
(D.D.C. 2020), aff'd, 848 F. App'x 428 (D.C. Cir. 2021) .
.

8

Lawyers' Comm. for 9/11 Inquiry, Inc. v. Wray,
848 F. App'x 428 (D.C. Cir. 2021)
.
.

.

.

.

.

12

Liljeberg v. Health Services Acquisition Corp., 486 U.S. 847 (1988)

33, 35-36

Marshall Field & Co. v. Clark, 143 U.S. 649 (1892)

.

42

.

40

Natural Res. Def. Council v. Browner, 57 F.3d 1122 (D.C.Cir.1995). .

39

Nguyen v. U.S., 539 U.S. 69 (2003)

.

.

Moore v. District of Columbia, 907 F.2d 165, 175 (D.C.Cir.1990).

.

.

.

.

.

.

34

Offutt v. United States, 348 U.S. 11 (1954) .

.

.

.

.

32

.

.

.

46

.

.

.

39

Southern Pacific Communications Co. v. American Tel. & Tel. Co.,
740 F.2d 980 (D.C. Cir. 1984), cert. denied, 470 U.S. 1005 (1985)

.

32

Tumey v. Ohio, 273 U.S. 510 (1927) .

.

.

.

.

.

32

U.S. v. Diaz, 797 F.2d 99 (2d Cir. 1986)

.

.

.

.

.

32-33

United States v. Haldeman, 559 F.2d 31 (D.C. Cir. 1976)
(en banc) (per curiam), cert. denied, 431 U.S. 933 (1977) .

.

.

32

United States v. Ron Pair Enterprises, Inc., 489 U.S. 235 (1989)

.

39

U.S. ex rel. Totten v. Bombardier Corp., 380 F.3d 488 (D.C. Cir. 2004)

39

Ward v. Monroeville, 409 U.S. 57 (1972)

491 U.S. 440 (1989)
Sierra Club v. EPA, 353 F.3d 976 (D.C. Cir. 2004) .

.

.

.

.

.

34

Whitehall Tenants Corp. v. Whitehall Realty Co.,
136 F.3d 230 (2d Cir. 1998)
.
.
.
.

.

.

.

32-33

9

CONSTITUTION, STATUTES, RULES, AND LEGISLATIVE HISTORY
U.S. Const. art. III, § 2, cl. 1.

.

.

.

.

.

.

.

13-14

JOURNAL CLAUSE, U.S. CONST. art. I § 5 cl. 3 .

.

.

.

42

First Amendment, U.S. Constitution .

.

.

.

.

.

48

Administrative Procedure Act, 5 U.S.C. § 702

.

.

.

.

14, 18

Administrative Procedure Act, 5 U.S.C. § 706

.

.

.

.

14, 18

18 U.S.C. § 3332(a)

.

.

.

.

.

.

.

.

26

28 U.S.C. § 455(a) .

.

.

.

.

.

.

.

28 U.S.C. § 1291 .

.

.

.

.

.

.

.

.

15

28 U.S.C. § 1331 .

.

.

.

.

.

.

.

.

14

28 U.S.C. § 1346 .

.

.

.

.

.

.

.

.

14

28 U.S.C. § 1361 .

.

.

.

.

.

.

.

.

14, 18

13, 31-33

Consolidated and Further Continuing Appropriations Act, 2013,
Pub. L. No. 113-6, 127 Stat. 198 (March 23, 2013).
.
14, 20-21, 36, 38,
40, 43, 45
Senate Explanatory Report for Public Law 113-6,
CONGRESSIONAL RECORD, March 11, 2013, SENATE p. S1305 .
20, 43
Senate Resolution 610, Wed. September 26, 2018 Cong. Rec.
pp. 56316-56317 .
.
.
.
.
.
.

10

.

.

22, 43

CITATIONS OF OFFICIAL AND UNOFFICIAL REPORTS OF OPINIONS
AND ORDERS
The United States Court of Appeals for the District of Columbia Circuit
Judgment

-Appellants

claims, on February 16, 2021 is unpublished, and reported at Lawyers' Comm. for
9/11 Inquiry, Inc. v. Wray, 848 F. App'x. 428 (D.C. Cir. 2021).
The United States Court of Appeals for the District of Columbia Circuit
Order denying Appellants Motion for Disclosure and Alternative Motion to Vacate
Judgment, regarding judicial disqualification, issued on April 16, 2021 in
Committee for 9/11 Inquiry, Inc. et al. v. Wray et al., Case No. 20-5051, is not
published or reported.
The United States District Court for the District of Columbia
Memorandum Opinion dismissing Plaintiffsstanding, on January 3, 2020, is published. See Lawyers' Comm. for 9/11 Inquiry,
Inc. v. Wray, 424 F. Supp. 3d 26 (D.D.C. 2020), aff'd, 848 F. App'x. 428 (D.C. Cir.
2021).
STATEMENT OF JURISDICTION
The United States Court of Appeals for the District of Columbia Circuit
issued its opinion, affirming the

decision, on February 16, 2021.
11

Petitioners filed the instant Petition on July 16, 2021, within 150 days of the
February 16, 2021, decision of the Court of Appeals, via commercial courier for
delivery to the Clerk of this Court within three days, in compliance with this
Order of March 19, 2020 (which allows 150 days for the filing of any
Petition for Certiorari).
28 U.S.C. § 1254(1) is the statutory provision which confers on this Court
jurisdiction to review on a Writ of Certiorari the judgment and orders of the
United States Court of Appeals for the District of Columbia Circuit in question in
this case.
No special notifications pursuant to Rule 29.4(b) or (c) are required.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Any justice, judge, or magistrate judge of the United States shall
disqualify himself in any proceeding in which his impartiality might
reasonably be questioned.
28 U.S.C. § 455(a).
The judicial Power shall extend to all Cases, in Law and Equity,
arising under this Constitution, the Laws of the United States, and
Treaties made, or which shall be made, under their Authority;--to all
Cases affecting Ambassadors, other public Ministers and Consuls;--to
all Cases of admiralty and maritime Jurisdiction;--to Controversies to
which the United States shall be a Party;--to Controversies between
two or more States;--between a State and Citizens of another State;-between Citizens of different States;--between Citizens of the same

12

State claiming Lands under Grants of different States, and between a
State, or the Citizens thereof, and foreign States, Citizens or Subjects.
U.S. Const. art. III, § 2, cl. 1.
Provided further, That $500,000 shall be for a comprehensive review
of the implementation of the recommendations related to the Federal
Bureau of Investigation that were proposed in the report issued by the
National Commission on Terrorist Attacks Upon the United States.
Consolidated and Further Continuing Appropriations Act, Public Law 113 6, 127
STAT. 198, 247 (Mar. 26, 2013).
STATEMENT OF THE CASE
A.

Jurisdiction of the District Court
The federal statutes that provide jurisdiction to the District Court are 28

U.S.C. § 1331 (federal question); 28 U.S.C. §1346(a)(2) (United States as
defendant); and 28 U.S.C. § 1361 (mandamus).
n action under the federal mandamus statute,
28 U.S.C. § 1361 (Mandamus Statute), and the Administrative Procedures Act, 5
U.S.C. §§ 702, 706 (APA), seeking to compel the Federal Bureau of Investigation
(FBI) and the Department of Justice (DOJ) to comply with a mandate from
Congress issued in 2013-2014 in the Consolidated and Further Continuing
Appropriations Act, 2013, Pub. L. No. 113-6, 127 Stat. 198, 247 (2013). This
mandate from Congress required the FBI to conduct an independent assessment of
13

all evidence known to the FBI related to the terrorist attacks of September 11, 2001
(9/11) not considered by the original 9/11 Commission.
In their Amended Complaint Plaintiffs alleged, inter alia, that Defendants,
after acknowledging this mandate from Congress, and purporting to comply with
assessment (issued in the

categories of significant evidence known to the FBI related to the terrorist attacks
of September 11, 2001, that were not considered by the original 9/11 Commission,
and thereby failed to comply with the mandate from Congress.
B.

Jurisdiction of the Court of Appeals
The Court of Appeals had appellate jurisdiction pursuant to 28 U.S.C. §

1291. Petitioners timely appealed to the United States Court of Appeals for the
District of Columbia Circuit from the final Memorandum Opinion and Order, both
entered by the District Court on January 3, 2020, which dismissed all of
claims in the action.
Plaintiffs timely filed their Notice of Appeal within 60 days on March 3,
2020.
C.

Relevant Procedural History
On March 25, 2019, Plaintiffs filed their original Complaint seeking
14

injunctive relief under the APA and the Mandamus Statute and alleging that the
federal Defendants had failed to comply with the mandate from Congress which
imposed on them a non-discretionary duty to conduct an independent assessment
of all evidence known to the FBI related to the terrorist attacks of September 11,
2001, not considered by the original 9/11 Commission. District Court Dkt. #1. The
Complaint included several counts each addressing a significant category of 9/11
evidence ignored and excluded by the federal Defendants in their 2015 report.
On August 30, 2019, Plaintiffs filed their First Amended Complaint (FAC),
District Court Dkt. #10
and the Mandamus Statute and added additional fact allegations.
On September 11, 2019, the federal Defendants filed a Motion to Dismiss
the FAC. District Court Dkt. #12.
On January 3, 2020, the District Court granted the Defendants Motion to
Dismiss and dismissed with prejudice all counts of the Amended Complaint.
District Court Dkt. #15 (Memorandum Opinion), #16 (Order).
On March 3, 2020, Plaintiffs filed their Notice of Appeal of the District
District Court Dkt. #17.
On June 22, 2020, Petitioners filed their Brief before the D.C. Circuit.
On August 21, 2020, the federal Defendants-Appellees filed their appellate
15

Brief.
On October 16, 2020, after

appeal had been briefed, the D.C.

Circuit issued an order scheduling oral argument in the case for December 9, 2020.
The composition of the appeals panel was not announced.
On November 24, 2020, the D.C. Circuit appeals panel issued an Order in
appeal stating that oral argument would not assist the Court and that
the case would be decided on the record and the briefs. This Order disclosed that
the three Circuit judges on the appeals panel included then-Circuit Judge Merrick
Garland (now Attorney General of the United States).
On February 16, 2021, the D.C. Circuit appeals panel issued its unpublished
Judgment affirming the Judgment of the District Court.
On April 1, 2021, Petitioners filed their Motion for Disclosure and
Alternative Motion to Vacate Judgment with the D.C. Circuit (regarding a judicial
disqualification issue related to then-Circuit Judge Garland, see discussion infra).
On April 12, 2021, the federal Defendants-Appellees filed their response to

On April 16, 2021, the appeal panel of the D.C. Circuit issued its decision
nd Alternative Motion to Vacate
Judgment.
16

On July 16, 2021, Petitioners filed the instant Petition for Certiorari with the
Supreme Court.
D.

Material Facts
Plaintiffs Robert McILvaine, the father of a victim of the 9/11 terrorist

attacks at the World Trade Center WTC)
Committee for 9/11 Inquiry, Inc., and the nonprofit organization Architects and
Engineers for 9/11 Truth filed the underlying action for injunctive relief on March
25, 2019 under the Administrative Procedure Act (APA), 5 U.S.C. §§ 702, 706,
and the federal mandamus statute, 28 U.S.C. § 1361 (Mandamus Statute),
regarding FBI failures to comply with a mandate from Congress regarding 9/11.
Following those tragic events of 9/11 at the WTC in New York City, at the
Pentagon, and near Shanksville Pennsylvania, the Congress initiated a joint inquiry
into the 9/11 attacks. This investigation (the Joint Inquiry ) was conducted by
Senate and House Intelligence Committees. The report from this inquiry was
released in part in December 2002 but the final section, encompassing some
twenty-eight pages, was withheld from the public. Fourteen years later, on July 15,
2016, public pressure finally caused the release of the withheld

-Eight

Pages. The 2002 Joint Inquiry was limited in scope, partially secret, and did not
satisfy the public demand for a comprehensive investigation into 9/11. FAC, ¶ 2.
17

Public pressure from 9/11 family members caused Congress to establish the
National Commission on Terrorist Attacks Upon the United States (the 9/11
Commission). This Commission was tasked to prepare a full account of the
circumstances surrounding 9/11. FAC, ¶ 3). The 9/11 Commission suffered from
several publicly acknowledged limitations. For example, Co-Chair of the
Commission former Congressman Lee Hamilton concluded that the government
established the 9/11 Commission in a manner designed to ensure that it would fail.
Commission Co-Chair Hamilton stated that there were all kinds of reasons that he
and others on the Commission thought they were set up to fail. FAC, ¶ 4.
Ultimately, the 9/11 Commission produced its own voluminous report which
made certain recommendations related to the FBI and addressed some, but not all,
of the then-available evidence relating to the 9/11 attacks. The members of the
9/11 Commission acknowledged that additional evidence relating to 9/11 would
likely be brought forward later. Over the years that followed, significant additional
evidence regarding the 9/11 attacks was publicly reported, some from government
inquiries and some from inquiries by concerned citizens and non-profits. FAC, ¶ 5.
In January 2014, Congress mandated a new 9/11 inquiry by the FBI.
Congress mandated that the FBI conduct a comprehensive external review of the
implementation of the recommendations related to the FBI that were proposed in
18

the report issued by the 9/11 Commission. Specifically included in this mandate
was the requirement that the FBI and the external review body it created in
implementing this external review (which ultimately became known as the 9/11
Review Commission ), assess any 9/11 related evidence known to the FBI that was
not considered by the original 9/11 Commission. Further, the Congress mandated
that the FBI submit a report to the relevant committees of the Congress on the
findings and recommendations resulting from this review. FAC, ¶ 6. This mandate
was expressed in P.L. 113-6, and in the Senate Explanatory Report of March 11,
2013 for Public Law 113-6 (March 23, 2013), which states:
Implementation of 9/11 Commission recommendations. This
Act includes $500,000 for a comprehensive external review of the
implementation of the recommendations related to the FBI that were
proposed in the report issued by the National Commission on Terrorist
(3) an
assessment of any evidence now known to the FBI that was not
considered by the 9/11 Commission related to any factors that
contributed in any manner to the terrorist attacks of September
11, 2001; and (4)
. The FBI shall submit a report to the
Committees, no later than one year after enactment of this Act, on
the findings and recommendations resulting from this review. The
FBI is encouraged, in carrying out this review, to draw upon the
experience of 9/11 Commissioners and staff.
CONGRESSIONAL RECORD, March 11, 2013, SENATE at page S1305
(emphasis added).

19

The Congress as a whole was not only aware of this Senate Explanatory
Report, but included in Public Law 113-6 the following statement:
EXPLANATORY STATEMENT
SEC. 4. The explanatory statement regarding this Act printed in the
Senate section of the Congressional Record on or about March 11,
2013, by the Chairwoman of the Committee on Appropriations of the
Senate shall have the same effect with respect to the allocation of
funds and implementation of this Act as if it were a joint
explanatory statement of a committee of conference.
PUBLIC LAW 113 6, MAR. 26, 2013, 127 STAT. 199 (emphasis added).
This directive from Congress was understood by the federal Defendants at
the time to be mandatory. The 2015 Report of the FBI s 9/11 Review Commission
itself shows that the contemporaneous understanding of the Defendants was that
they were indeed acting under a clear mandate from Congress.
(U) INTRODUCTION THE FBI 9/11 REVIEW COMMISSION
(U) The FBI 9/11 Review Commission was established in
January 2014 pursuant to a congressional mandate. The United States
Congress directed the Federal Bureau of Investigation (FBI, or the
implementation of
the recommendations related to the FBI that were proposed by the
National Commission on Terrorist Attacks Upon the United States
The Review
Commission was tasked specifically to report on:
*

*

*

20

3. An assessment of any evidence not [sic] [now] known to
the FBI that was not considered by the 9/11 Commission related
to any factors that contributed in any manner to the terrorist
attacks of September 11, 2001.
*

*

*

(U) The Review Commission was funded by Congress in Fiscal Years
2013, 2014, and 2015 (FY13, FY14, and FY15) budgets
. The
enabling legislation also required the FBI Director to report to the
Congressional committees of jurisdiction on the findings and
recommendations resulting from this review.
Report of the 9/11 Review Commission, p. 3 (footnotes omitted, emphasis added)
(Petitioners D.C. Circuit Appendix at 114).
The Senate passed Resolution 610 on September 26, 2018, stating:
There are so many we honor today by our passage of this sense-ofthe-Senate resolution. This Senate resolution is itself succinct but
significant. It resolves that it is the sense of the Senate that documents
related to the events of September 11, 2001, should be declassified to
the greatest extent possible; and, two, that the survivors, the families
of the victims, and the people of the United States deserve answers
about the events and circumstances surrounding the September 11
terrorist attack upon the United States. Many years later, the pain and
grief they endured on that horrific day is still with them. Each year in
Connecticut we commemorate this day, and we will never forget. That
is our resolve--never to forget, never to yield to hopelessness, never to
allow our support for these families to diminish. This sense-of-theSenate resolution makes real the promise the Nation made to these
9/11 families. They deserve this evidence. Even if it is embarrassing
to foreign governments or foreign nationals, they deserve justice.
Senate Resolution 610, Wed. September 26, 2018, Cong. Rec. pp. 56316-56317.

21

Defendants failed to comply with the mandate from Congress in several
ways, as reflected in the FBI s 9/11 Review Commission Report, completed and
released March 25, 2015, and as described in the FAC. The FAC provides details
of significant 9/11 evidence not considered by the original 9/11 Commission,
evidence the existence of which the FBI s 9/11 Review Commission Report failed
to even recognize, and totally failed to assess. FAC, ¶ 7, and Counts IA-VIIB.
A few examples from Paragraph 34 and its subparagraphs in the First
Amended Complaint illustrate the significance of the evidence ignored by the FBI
:
34a. Numerous First Responders
reported sights and sounds
of explosions on 9/11 which due to the circumstances, timing, and
specific details observed and reported could not be explained by plane
impacts or resultant office fires.
34b. See, Harrit, N.H., Far
Thermitic Material Discovered in Dust from the 9/11 World Trade
7-31 (2009). According to these highly qualified scientists, WTC dust
contained distinctive red/gray colored chips, which when tested,
a high tech explosive or incendiary
T]he red layer of
the red/gray chips . . . discovered in the WTC dust is active, unreacted
thermitic material, incorporating nanotechnology, and is a highly
energetic pyrotechnic or explosive material
34c. Expert analysis of seismic data and the resulting
conclusion that explosions occurred at WTC1 and WTC2 on 9/11
prior to the airplane impacts on WTC1 and WTC2, as well as prior to
22

the
34d. The presence in all of the WTC dust of tons of previously
molten iron-rich metal microspheres,
that would be physically
impossible based on the burning of jet fuel and office contents alone,
but would be expected if high-tech
nano-thermite explosives
and/or incendiaries were used
.
*

*

*

34g. Testimony from experts and eye-witnesses which confirm
instrument readings of extremely high temperatures exceeding
2,800ºF and fires persisting at Ground Zero for months after 9/11 that
cannot be explained by burning jet fuel or building contents but which
are consistent with the presence of thermate
or nano-thermite.
FAC (Petitioners D.C. Circuit Appendix at 50).
Petitioners also alleged in the FAC facts related to

tanding.

Plaintiff Robert McILvaine is the father of Bobby McIlvaine. Bobby McIlvaine
was killed at the World Trade Center on 9/11. FAC ¶ 15. If the Defendants are
ordered to comply with the mandate from Congress, the result of such an FBI
investigation and report to Congress, regarding 9/11 evidence that Defendants have
heretofore failed to assess or report, is reasonably expected to be a better public
understanding of the events of 9/11 and disclosure of any criminal conduct or
government malfeasance, misfeasance or non-feasance not previously known by
the public. Such a report would provide a more complete picture of what happened
on 9/11, assisting the family members of the 9/11 victims, including Robert
23

McIlvaine, in coming to closure regarding this tragedy. See FAC ¶ 15.

-profit corporation. The mission of the

tragic events of 9/11.
Defendants complying with the mandate from Congress at issue. A report to
Congress by Defendants regarding the 9/11 related evidence referenced in the FAC
that Defendants failed to assess would promote both
mission: transparency and accountability regarding the tragic events
of 9/11. These are important organizational interests distinct from the general
public s interest in agency compliance with the law. FAC, ¶ 10.
Plaintiff Architects & Engineers for 9/11 Truth (AE) is a non-profit
organization, incorporated in California, that has conducted an independent multiyear scientific investigation of the causes of the collapse on 9/11 of the WTC
towers and WTC Building 7
the public as to the true reasons these WTC buildings collapsed. This is an
important organizational interest distinct from the general public s interest in
seeing agencies comply with the law. A report to Congress by Defendants
regarding the 9/11 related evidence addressed in the FAC that Defendants failed to
24

assess, particularly in regard to the evidence regarding use of explosives and
incendiaries to demolish three WTC buildings on 9/11, would promote the primary
-profit mission. FAC, ¶ 13. AE funded a special engineering
study of the collapse of World Trade Center 7 on 9/11, contracted for by AE with
civil engineering Professor Leroy Hulsey of the University of Alaska (available at
https://www.ae911truth.org/wtc7).

application for a reward with the U.S. State Department and the FBI under the
AC, ¶¶ 11, 14. This program
offers rewards to citizens who report information that leads to the arrest or
conviction of persons who committed or aided the commission of terrorist acts or
crimes. As part of its application
information it had previously submitted to the U.S. Attorney (S.D.N.Y.) pursuant
to 18 U.S.C. § 3332(a). This evidence, which includes eye-witness testimony from
First Responders and extensive scientific evidence and expert analysis, thoroughly
addresses the fact, described in the FAC, Count IA, that three WTC buildings were
destroyed on 9/11 by use of explosives. FAC, Count IA, ¶¶ 30-49. Petitioners also
offered to submit to the District Court additional standing facts and evidence via
affidavits or declarations or via a requested evidentiary hearing.
25

During the pendency of Petitioner

an issue arose

regarding whether a Circuit Judge on the appeal panel should have been
disqualified or recused earlier. On October 16, 2020, after the appeal had been
briefed, the D.C. Circuit issued an order scheduling oral argument in the case for
December 9, 2020. The three-judge panel that would hear and decide the case was
not announced at that time. On November 20, 2020, at least four media
organizations (NPR, FOX, Yahoo News, and The Hill) published stories indicating
that Judge Merrick Garland was under consideration by then President-Elect Biden
to be his nominee for the position of Attorney General of the United States, and
that Judge Garland was on the short list of 3-5 such candidates. (Exhibits 1, 2, and
3 to Petit

.

On November 24, 2020, the D.C. Circuit issued another order stating that the
three-judge panel had decided that oral argument would not assist the Court and
that the case would be decided on the record and the briefs. The three judges on the
panel were listed as Garland, Pillard, and Katsas. No indication was given that any
Judge had not participated in this decision to dispense with oral argument.
The D.C. Circuit
the case screening judge determine initially if oral argument appears to not be
necessary and then that screening judge must get the concurrence of both other
26

judges on the three-judge panel before issuance of an order dispensing with oral
argument. Thus, there is little doubt that Judge Garland participated in the
November 24, 2020 decision that dispensed with oral argument in this appeal.
Judge Garland at some later point may have recused. The date any recusal
commenced has not been reported to Petitioners.
disqualification in

possible

appeal was not discovered until the final

was explicitly referenced in this unpublished Judgment. There was
no appointment of a judge to replace Judge Garland on the three-judge panel.
On January 6, 2021, the media reported that Judge Garland had won the
competition among the candidates and that President-Elect Biden intended to
nominate Judge Garland to be Attorney General of the United States. (Exhibit 4 to
. President Biden thereafter
Attorney
General. The Senate held confirmation hearings and Judge Garland was confirmed
by the Senate. (Exhibits 5, 6,

.

On February 16, 2021, the D.C. Circuit appeal panel issued an unpublished
Judgment in Petitioners appeal. The unpublished Judgment affirmed the District
that all Appellants lacked standing. This Judgment included a
27

case was submit
On April 1, 2021, Petitioners filed their Motion for Disclosure and
Alternative Motion to Vacate Judgment with the D.C. Circuit, requesting a full
disclosure of the facts and sequence and timing of events relating to Judge

. In the alternative to such a full
disclosure, the Petitioners
vacated in order to promote public confidence in the judicial system. On April 16,
2021, the appeal panel denied

.

ARGUMENT ON REASONS FOR ALLOWANCE OF THE WRIT
A.

The United States Court of Appeals for the District of Columbia
Circuit Departed from the Accepted and Usual Course of Judicial
Proceedings to Such an Extent as to Call for an Exercise of this
Court's Supervisory Power When the Court of Appeals Failed to
Provide a Remedy or Even a Disclosure Regarding an Apparent
Violation of the Federal Judicial Disqualification Statute Regarding a
Judge Who Was a Member of an Appeals Panel in a Case Where the
Department of Justice was a Defendant While that Judge Was a
Candidate Under Consideration for the Nomination to be Attorney
General of the United States
This Court should grant this Petition for Certiorari because the D.C. Circuit

failed to provide a remedy or even a disclosure regarding an apparent and blatant

28

violation of the federal judicial disqualification statute in a high profile matter
involving a judge who was a candidate for the nomination to be Attorney General
(who was nominated and confirmed as Attorney General). This case, a civil action
brought by Petitioners against the United States Department of Justice and the FBI,
was decided on February 16, 2021 by a panel of this Court that included thenCircuit Judge Merrick Garland. Judge Garland was then the nominee of President
Biden to lead the Department of Justice, a defendant-appellee in this matter, as
Attorney General. Judge Garland has since been confirmed as Attorney General.
The facts presented supra require some appropriate judicial action in order
to maintain and promote public confidence in the integrity of the judiciary. Given
the facts stated herein, Petitioners believe it would be appropriate for the Supreme
Court to grant this Petition for Certiorari and order the D.C. Circuit to make the
disclosures requested by Petitioners in their Motion for Disclosure and Alternative
Motion to Vacate, and to also determine whether the unpublished Judgment issued
by the D.C. Circuit on February 16, 2021, should be vacated to promote and
maintain public confidence in the integrity of the judiciary.
Members of the public reviewing the facts here could reasonably have a
concern that even though Judge Garland is reported to have taken no part in the
final decision of the D.C. Circuit, the decision to dispense with oral argument that
29

Judge Garland did participate in, and the likely related decision to issue the later
final decision in unpublished form, could have been outcomes desired in
themselves by the federal Defendants-Appellees, the DOJ and FBI.
These decisions, while not the final decision on the merits, would result in
the appeal and the underlying case, which relate to an FBI failure to comply with a
mandate from Congress to evaluate 9/11 evidence, having a lower profile, i.e.,
getting less media and public attention (and less attention from Congress) than
would have been the case had oral argument been held and had the final decision
been in the form of a published opinion.
As reflected in the facts stated supra, Judge Garland was publicly known to

nomination at least as early as November 20, 2020. This was four days prior to

oral argument, issued November 24, 2020.

the United States shall disqualify himself in any proceeding in which his
impartiality might

While Appellants are not in a

position to know when Judge Garland first knew he was a candidate for the

30

Attorney General nomination, the obligation of a judge under 28 U.S.C. § 455 to
disqualify turns on what the public, not the judge, knew at the relevant time.

circumstances giving rise to the basis for such reasonable questioning,
see Liljeberg v. Health Services Acquisition Corp., 486 U.S. 847,
858 61, 108 S.Ct. 2194, 2201
Whitehall Tenants Corp. v. Whitehall Realty Co., 136 F.3d 230, 233 (2d Cir. 1998)
(emphasis added).
28 U.S.C. § 455(a) establishes a disqualification standard more demanding
(of judges) than that required by the Due Process Clause. Southern Pacific
Communications Co. v. American Tel. & Tel. Co., 740 F.2d 980, 991 (D.C. Cir.
1984), cert. denied, 470 U.S. 1005 (1985), citing Tumey v. Ohio, 273 U.S. 510, 523
(1927), United States v. Haldeman, 559 F.2d 31, 130 n. 276 (D.C. Cir. 1976) (en
banc) (per curiam), cert. denied, 431 U.S. 933 (1977); In re IBM Corp., 618 F.2d
923, 932 n. 11 (2d Cir. 1980); FTC v. Cement Institute, 333 U.S. 683, 702 (1948).

satisfied. U.S. v. Diaz, 797 F.2d 99, 100 (2d Cir. 1986), citing Offutt v. United
States, 348 U.S. 11, 14 (1954). The standard under 28 U.S.C. § 455(a) is objective,

31

U.S. v. Diaz, 797 F.2d 99, 100 (2d Cir. 1986), citing In re IBM
Corp., 618 F.2d 923, 929 (2d Cir.1980); 28 U.S.C. § 455(a).
The Due Process Clause may sometimes require disqualification of a judge

justice equally between contending parties. But to perform its high function in the
best way,

Aetna Life Insurance

Co. v. Lavoie, 475 U.S. 813, 825 (1986).
The Supreme Court observed in Liljeberg that the purpose of 28 U.S.C. §

Liljeberg v. Health Services
Acquisition Corp., 486 U.S. 847, 860, 865 n. 12 (1988) citing Aetna Life Ins. Co. v.
Lavoie, 475 U.S. 813 (1986).

of disqualification are irrelevant to the duty to disqualify. Whitehall Tenants Corp.
v. Whitehall Realty Co., 136 F.3d 230, 233 (2d Cir. 1998) citing Liljeberg, 486
U.S. at 859. In the Whitehall
persuaded the judge to recuse himself in an abundance of caution, circumstances
that involved no interest

pecuniary or otherwise

in the outcome of the

litigation. Id. Thus, invalidation of the judgment was not considered necessary.
32

On the other extreme of the disqualification circumstances continuum is
Aetna Life Insurance Co. v. Lavoie, 475 U.S. 813 (1986) in which the Court
vacated a judgment where the deciding vote was cast by a judge with a substantial
pecuniary interest in the outcome. The Aetna court held that the appropriate inquiry

Id.
at 822 (quoting Ward v. Monroeville, 409 U.S. 57, 60 (1972)).
Further, in another case on different facts, but analogous, the Supreme Court
distinguished scenario where a judge was not eligible to have been appointed to a
panel in the first instance versus where the initial appointment was valid.
disposition by a panel of two judges in the event that one member of a
three-judge panel to which the appeal is assigned becomes unable to
ibid., but it is less clear whether the quorum statute offers
postjudgment absolution for the participation of a judge who was not
otherwise competent to be part of the panel under § 292(a).
Nguyen v. U.S., 539 U.S. 69, 83 (2003).
In a situation as here, where a judge who though eligible to participate in a

deliberations, but only disqualifies himself after having participated to some extent
in the panel including in significant procedural decisions, the remaining two judges

33

should not be considered to constitute a proper quorum of the panel to decide the

earlier participation.
In the instant case, the circumstance of Judge Garland serving on the appeals
panel after being under consideration by the President-Elect to be nominated to

reasonably be consid

in regard to either potential bias or an impact

on public confidence in the judiciary. While
participation in the panel proceedings here was analogous to casting a deciding
vote on the merits, nonetheless,
early proceedings and in at least one procedural decision of consequence -dispensing with oral argument. That decision may have had another significant
consequence

issuance of the case decision as an unpublished Judgment.

decision in order to promote public confidence in the integrity of the judiciary.
Moreover, advancement of the purpose of the provision to
promote public confidence in the integrity of the judicial process, see
S.Rep. No. 93 419, p. 5 (1973); H.R.Rep. No. 93 1453, p. 5 (1974)
does not depend upon whether or not the judge actually knew of facts
creating an appearance of impropriety, so long as the public might
reasonably believe that he or she knew.

34

Liljeberg v. Health Services Acquisition Corp., 486 U.S. 847, 859-60 (1988).
Where the instant case falls on the continuum of disqualification

decision should be vacated, may only be capable of being adequately evaluated
based on the information requested by Petitioners to be disclosed. Unfortunately,
the D.C. Circuit appeal panel declined to grant any disclosure on the matter. That
decision further undermines public confidence in the judiciary. Petitioners
respectfully request that the Supreme Court grant this Petition for Certiorari in
order to avoid irreparable damage to public confidence in the judicial system.
B.

The Decision Below of the United States Court of Appeals for the
District of Columbia Circuit, that an Appropriations Act, which
Provided Substantial Funding for the FBI to Conduct an
Independent Assessment of Evidence Related to the Terrorist
Attacks of September 11, 2001, Did Not Require the FBI to Report
or Disclose Any Information Resulting from this Assessment of the
Congress Itself, Notwithstanding Unambiguous and Authoritative
Legislative History to the Contrary, Is in Error and in Conflict with
Decisions of the Supreme Court on the Important Question of the Role
of Legislative History in Determining Congressional Intent
The D.C. Circuit, in affirming the District Court

acted contrary to

precedent of this Court and erred as a matter of law in its interpretation of the
Consolidated and Further Continuing Appropriations Act, 2013, Pub. L. No. 113-6,
127 Stat. 198, 247 (2013), and the legislative history for this Act, when the District
35

Court concluded that this Act, which provided substantial funding for the FBI to
conduct an independent assessment of all 9/11 evidence did not require the FBI to
report or disclose any information resulting from this expensive assessment of the
This
interpretation was an absurdity and flew in the face of plainly contrary clear and
authoritative legislative history, which under the Supreme Court s precedent
should have been considered.
Certiorari should be granted here because this departure from this Court s
precedent by the D.C. Circuit was an extreme one with the potential for far
reaching consequences. Both lower courts have essentially put themselves in the
position of deciding what only Congress can decide and express

the intent of

Congress, in this case regarding a comprehensive FBI review and assessment of
9/11 the details of which are not spelled out in the statutory language. The D.C.
Circuit, like the District Court, not only transgressed
precedent, but both lower courts transgressed the Separation of Powers established
in the Constitution by usurping the authority of Congress to define for itself what
its intentions are in ordering and funding a study by an executive agency.
The D.C. Circuit, like the District Court, concluded that because the
language requiring the report to Congress was not found in the language of the
36

public law at issue, which only stated that the FBI had to conduct a congressionally
funded comprehensive 9/11-related external review, but was found in the Senate
Explanatory Report, that the plain language of the statute precluded resort to that
(abundantly clear and indisputably authoritative) legislative history, and thus
concluded erroneously that there was no reporting or disclosure requirement
imposed on the federal Defendants by Congress.
The District Court gave no weight to the fact that in Public Law113 6, Mar.
26, 2013, 127 STAT. 199, itself, the Congress gives this Senate Explanatory
Statement the force of a joint explanatory statement of a committee of conference.
Further, the District Court ignored this Court s precedent that legislative history
may be resorted to when the language of a statute is only superficially clear, and in
particular when a plain reading of the literal language results in an absurdity. Here,
it is an absurdity to conclude that Congress spent over a million dollars for an FBI
independent assessment of all evidence related to the worst terrorist attack in the

the funding entity -- Congress.
at
least where the disposition required by the text is not absurd

is to enforce it

Lamie v. United States Tr., 540 U.S. 526, 534 (2004)
37

(emphasis added). And see, Hartford Underwriters Ins. Co. v. Union Planters
Bank, N.A., 530 U.S. 1, 6 (2000) (same); United States v. Ron Pair Enterprises,
Inc., 489 U.S. 235, 241 (1989) (same).
to statutory design and pertinent legislative history may often
shed new light on congressional intent, notwithstanding statutory language that
See, e.g., Natural Res. Def. Council v. Browner, 57
F.3d 1122, 1127 (D.C. Cir. 1995) (emphasis added). Also see, Sierra Club v. EPA,
353 F.3d 976, 988 (D.C. Cir. 2004); Consumer Elec. Ass'n v. FCC, 347 F.3d 291,
298 (D.C. Cir. 2003).
The plain meaning of legislation should be conclusive, except
application of a statute will
produce a result demonstrably at odds with the intentions of its
drafters Griffin v. Oceanic Contractors, Inc., 458 U.S. 564, 571,
102 S.Ct. 3245, 3250, 73 L.Ed.2d 973 (1982). In such cases, the
intention of the drafters, rather than the strict language, controls.
Ibid.
United States v. Ron Pair Enterprises, Inc., 489 U.S. 235, 242 (1989) (emphasis
added). Interpretations of a statute which would produce absurd results are to be
avoided if alternative interpretations consistent with the legislative purpose are
available. Griffin v. Oceanic Contractors, Inc., 458 U.S. 564, 575 (1982) (citing
United States v. American Trucking Assns., Inc., 310 U.S., at 542 543; Haggar Co.
v. Helvering, 308 U.S. 389, 394 (1940)); U.S. ex rel. Totten v. Bombardier Corp.,
38

380 F.3d 488, 494 95 (D.C. Cir. 2004).
The lower courts here focused on the fact that Public Law 113-6 did not
explicitly specify that the FBI was mandated to assess and report all 9/11 evidence,
but there is no language in Public Law 113-6 to the contrary, and what Public Law
113-6 does say is that the 9/11 review to be conducted by the FBI is to be

which the entire Congress in enacting Public Law 113-6 gave the force of a joint
explanatory statement of a committee of c
term not
evidence now known to the FBI that was not considered by the 9/11 Commission
related to any factors that contributed in any manner to the terrorist attacks of

Moore v. District of Columbia, 907
F.2d 165, 175 (D.C. Cir.1990) (quoting & citing Demby v. Schweiker, 671 F.2d
507, 510 (D.C. Cir. 1981)).
Here, it is an absurdity to conclude that Congress spent over a million
dollars for an FBI independent assessment of all evidence related to the worst

reported to anyone, even to Congress. Consequently, the lower courts here should
39

have examined the legislative history and found it to be as abundantly clear as it
plainly is, to the effect that Defendants were obligated to report their independent
assessment of all 9/11 evidence to the relevant committees of Congress.
The District Court acknowledged that the federal Defendants themselves
read this mandate from Congress to require them to issue a report to Congress,
which in fact Defendants did.
To be sure, the FBI took the explanatory statement seriously.
As Plaintiffs point out, the 9/11 Review Commission did in fact issue
produce it. Mot. to Dismiss Ex. 1 at 5. It is hardly surprising that the
FBI heeded the stated desire of its appropriators. That does not mean
interpretation of the law is not controlling.
District Court January 3, 2020, Memorandum Opinion, p. 7.

contemporaneous conduct, in reading the mandate as Plaintiffs read it, as a clear
indication that a contrary interpretation that there was no reporting requirement in
the mandate from Congress would lead to an absurd result

that Congress would

the crime of the century and the worst terrorist attack in the United States in history
and not intend to have the results reported to the Congress or the American people.

40

Once reported to Congress, such reports would normally be publicly
available, absent extraordinary circumstances and a specific finding by Congress
that they needed to be kept secret. The Journal Clause of the United States
, and
from time to time publish the same, excepting such Parts as may in their Judgment

1892, in Marshall Field & Co. v. Clark, 143 U.S. 649 (1892), noted the purpose of
the Journal Clause was to inform the electorate regarding congressional
proceedings and promote government transparency.
whole clause is to insure publicity to the proceedings of the
legislature, and a correspondent responsibility of the members to their
respective constituents. And it is founded in sound policy and deep
political foresight. Intrigue and cabal are thus deprived of some of
their main resources, by plotting and devising measures in secrecy.
The public mind is enlightened by an attentive examination of the
public measures; patriotism and integrity and wisdom obtain their due
reward; and votes are ascertained, not by vague conjecture, but by
positive facts. * * * So long as known and open responsibility is
valuable as a check or an incentive among the representatives of a free
people, so long a journal of their proceedings and their votes,
published in the face of the world, will continue to enjoy public favor
and be demanded by
Id. at 670-71.
It is clear that the Congress would not likely see a need for secrecy regarding

41

report of 2015 was unclassified and made available to the public, the Senate has
made clear its desire and intention that all 9/11 related evidence be declassified and
disclosed not only to the public to the maximum extent possible but also
specifically for the benefit of 9/11 family members. See Senate Resolution 610,
Wed. September 26, 2018, Cong. Rec. pp. 56316-56317.

blatant because in the instant case it is not actually the disposition required by the
statutory text standing alone that is absurd. It is worse than that. The statutory text
here simply says that the FBI is to conduct a comprehensive review and
assessment. This general language is not incompatible with the specifics in the
legislative history

the Senate Explanatory Report (treated as a report of a joint

committee of conference.) That Senate Explanatory Report simply fleshes out the

Congress requested. It is the
the language of the 2013 Appropriations Act, as if it were not only specific and
unambiguous so as to foreclose any role for legislative history in interpreting the
statute but also somehow incompatible with the intent the Congress clearly
expressed in the Senate Explanatory Report, that results in the absurdity.
42

Review on certiorari by this Court here is clearly warranted. Not only is the
D.C. Circuit decision

proper role

of legislative history in statutory interpretation, it is such an extreme departure

elsewhere, to usurp the role of Congress in defining what the Congress intends in a
particular legislative act.
C.

The Decision Below of the United States Court of Appeals for the
District of Columbia Circuit, which Denied Standing to a Father Who
Lost His Son in the 9/11 Attacks, and to Two Non-Profit Organizations
Asserting Informational and Organizational Standing, the Missions of
which Are Focused on 9/11 Transparency and Government
Accountability, Is in Error and in Conflict with Decisions of the
Supreme Court on the Important Question of the Constitutional
Requirements for Article III Standing
Certiorari should be granted here because the D.C. Circuit, in affirming the

District Court

, clearly and knowingly acted contrary to Supreme Court

precedent. Both lower courts here concluded that each of the Plaintiffs-Appellants,
including one family member of a 9/11 victim, Plaintiff Robert McILvaine whose
son Bobby perished at the World Trade Center on 9/11, and two nonprofit
organizations whose mission is focused on 9/11 transparency and government

comply with the mandate from Congress to conduct an independent assessment of

43

all 9/11 evidence. In so doing, the D.C. Circuit, like the District Court,
acknowledged the precedent holding that Informational Standing is to be
determined based on the plaintiffs reading of the requirements of the law at issue,
but nonetheless decided the Informational Standing issue based on the
and the

of the law at issue (the Consolidated and

Further Continuing Appropriations Act, 2013, Pub. L. No. 113-6).
Under the Supreme

s precedent, Plaintiffs do have Informational

Standing because the Defendants actions deprived Plaintiffs of access to
information to which they and the public would have had access had Defendants
complied with the mandate from Congress, as Plaintiffs-Petitioners read (and as
the federal Defendants previously read

prior to being sued) that law. That is,

Petitioners, absent Defenda
accordance with law and

-

discretionary duty under the mandate from Congress, would have had access to a
congressionally mandated comprehensive independent assessment of truly all 9/11
evidence known to the FBI that was not considered by the 9/11 Commission.

when the plaintiff fails to obtain information which must be publicly disclosed
FEC v. Akins, 524 U.S. 11, 21, 118 S.Ct. 1777, 141 L.Ed.2d
44

10 (1998); see also Public Citizen v. U.S. Dep't of Justice, 491 U.S. 440, 449, 109
S.Ct. 2558, 105 L.Ed.2d 377 (1989) (finding that failure to obtain information

their inability to obtain information lists of AIPAC donors ... and
campaign-related contributions and expenditures that, on
respondents' [plaintiffs ] view of the law, the statute requires that
AIPAC make public.
FEC v. Akins, 524 U.S. 11, 21 (1998) (emphasis added). The Supreme Court held,
based on this reasoning, that plaintiffs had informational standing to challenge the
agency's decision because were plaintiffs to prevail, the agency would have to
disclose the information sought.

adopted by the D.C. Circuit, was as follows.
the question is
interpretation, a statute requires the government or a third party to
Id. at 992 (emphasis added). Even so, the case law does
not require the Court to ignore the plain terms of a statute, even at the
pleading stage.
lower courts
engaged in this departure from precedent,

45

s view of the

statutory requirements for agency production of information to the public be
adopted for purposes of the standing analysis,

Appropriations Act at issue. However, it was not just the Plaintiffs-Petitioners who
read the Act as having a reporting requirement imposed on the federal Defendants
so did the federal Defendants at the time (and they did issue a report to Congress
and publicly released it), as noted supra.
The erroneous result of this unwarranted departure by the lower courts here
Akins regarding Informational Standing is
had there
been a reporting requirement in this mandate from Congress, then Plaintiff Robert
McILvaine, father of Bobby McILvaine who perished at the World Trade Center
on 9/11, may have had Informational Standing.
For example, if Congress had required the FBI to report on new
evidence, perhaps the goal would have been to mitigate the
suffering of survivors like McIlvaine. But Congress did not require
the disclosure of any information, so Plaintiffs cannot show
informational injury.
District

, p. 9 (emphasis added).
and rationale, and in doing
Akins.
46

If the Defendants are ordered to comply with the mandate from Congress
that they perform an assessment of any 9/11 evidence known to the FBI that was
not considered by the 9/11 Commission, the result of such an FBI investigation and
report to Congress can reasonably be expected to be a better public understanding
of the events of 9/11, and possibly disclosure of criminal conduct or government
malfeasance not previously known by the public. The resulting public disclosures
will provide a more complete picture of the truth of what happened on 9/11,
assisting 9/11 family members in coming to closure regarding this tragedy.
This is an important personal interest, shared only by the family members of
9/11 victims such as Petitioner McIlvaine, and is distinct from the general public
interest in seeing government agencies comply with the law. Mr. McILvaine has
been requesting the federal government to provide a true and complete explanation
of how and why his son Bobby died at the WTC on 9/11 but to date no agency has
done so. Thus, Mr. McILvaine has not only informational standing, but standing
under the First Amendment to petition his government for redress of this grievance
and the instant case is one mechanism for him to do so. As explained supra, the
Senate has made clear via a Resolution that it intends that as much government
9/11 evidence as possible be made available to 9/11 family members.
Akins
47

regarding Informational Standing, and achieved an unjust result, this Court should

The District Court and the D.C. Circuit also erred as a matter of law and
in concluding that each of the
Organizational Plaintiffs-Appellants, nonprofit organizations whose mission is
focused on 9/11 transparency and government accountability, lacked
Organizational Standing.
In Havens Realty Corp. v. Coleman, this Court held that an organization may
establish Article III standing if it can show that the defendant's actions cause a

379, 102 S.Ct. 1114. In making the organizational standing decision in Havens, the
Su

The

Court in Havens held that
activities with the consequent drain on the organization's resources

constitutes

far more than simply a setback to the organization's abstract social interests. Id.
The key for organizational standing is whether the challenged actions of
Defendants are in direct conflict with the organizational plaintiff's mission and
. The refusal of the
48

Defendants here to honor the mandate from Congress to assess all 9/11 evidence is
directly contrary to both organizational
transparency and accountability.
As explained in Equal Rights Center, we begin an inquiry
into Havens standing by asking whether the defendant's allegedly
unlawful activities injured the plaintiff's interest in promoting its
mission. Id. at 1140. If the answer is yes, we then ask whether the
plaintiff used its resources to counteract that injury.
American Soc. for Prevention of Cruelty to Animals v. Feld Entertainment, Inc.,
659 F.3d 13, 19 20 (D.C. Cir. 2011).
Had the FBI and its 9/11 Review Commission honored its mandate from
Congress and assessed and reported to Congress the publicly available evidence
articulated in the FAC, the organizational plaintiffs would not have had to expend
thousands of hours and tens of thousands of dollars developing and filing a Petition
to the U.S. Attorney for the special grand jury in New York and the State
Department Rewards Program application, and AE would not have had to expend
over two hundred thousand dollars for the special engineering study contracted for
by AE with civil engineering Professor Leroy Hulsey of the University of Alaska
(available at https://www.ae911truth.org/wtc7). The organizational plaintiffs here
engaged in these extraordinary expenditures of resources in an effort to counteract

49

mandate from Congress to assess and report on all 9/11 evidence.
Because the D.C. Circuit acted contrary to this Co

Havens

regarding Organizational Standing, and achieved an unjust result, this Court should

CONCLUSION
For the foregoing reasons, Petitioners respectfully request that the Supreme
Court of the United States grant this Petition for Writ of Certiorari and clarify the
applicable law for the nation's courts on these important questions regarding
judicial disqualification, use of legislative history, and Article III standing.
Respectfully submitted,
/s/ John M. Clifford
John M. Clifford,
Clifford & Garde, LLP
815 Black Lives Matter Plaza, NW, #4082
Washington, D.C. 20006
Tel. 202.280.6115
jclifford@cliffordgarde.com
Counsel of Record
Of counsel:
Mick G. Harrison, Esq.
520 S. Walnut Street, #1147
Bloomington, IN 47402
(812) 361-6220
mickharrisonesq@gmail.com
50

51

